A U D I T                   M E M O R A N D U M                                 N O . 3 5


                                                                                     February 10, 2004

To:               Jayne Seidman
From:             Walter Stachnik
Re:               Commission-wide Use of X-Ray Scanners

We performed a survey to evaluate Commission-wide use of x-ray machines, which are used to
scan incoming mail and packages. These machines were installed in the Operations Center,
Headquarters and all the regional and district offices (field offices) in Fiscal Year 2002.
We initiated the survey after we learned during a field office review that the office under review
rarely used its x-ray scanning machine and that its staff did not feel they had received adequate
training on how to identify suspicious items using the machine.
We found that Headquarters attempts to scan all mail that was not previously scanned or
irradiated. However, the Operations Center and most of the field offices do not use the machines
daily to scan incoming mail and packages. Only three of the eleven field offices use the machines
daily to screen mail. Several offices use it only when they identify a suspicious package. The
Operations Center staff use the machine when an item looks suspicious and to scan all mail when
the United States Government is operating under a “code orange” alert.
We also found that the Office of Human Resources and Administrative Services (OHRAS)1 has
not provided any written guidance to Headquarters, the Operations Center and the field offices
regarding how often and under what circumstances to use the x-ray machines.2

         Recommendation A
         OHRAS should provide written guidance to Headquarters, the Operations Center and the
         field offices on how often and under what circumstances to use the x-ray machines and
         what to do if a suspicious item is identified. In devising a policy, OHRAS should consult
         with the field offices to discuss their questions and concerns. OHRAS should monitor
         compliance with the guidance.
All of the field office staff received training on how to use the x-ray machines. However, five
field offices informed us that the training was inadequate or that their staff would have trouble
identifying a suspicious package by using the machine.

         Recommendation B
         In consultation with the field offices, OHRAS should procure additional training on the
         proper use of the x-ray machines for offices requiring additional training.

1
  Formerly the Office of Administrative and Personnel Management (OAPM).
2
  OHRAS provided verbal instructions to the Operations Center and Headquarters staff and has also had
informal communications with some field offices regarding use of the x-ray scanning machines.
C O M M I S S I O N - W I D E U S E O F X - R AY S C AN N E R S                 ( M E M O R AN D U M 3 5 )

                                                                               F E B R U AR Y 1 0 , 2 0 0 4
Cc:      Jim Clarkson
         Peter Derby
         Harry Fleming
         Stephen Johnston
         Jim McConnell
         Darlene Pryor
         Dana Schlictmann
         Clyde Woods

         Regional Directors and District Administrators
         District and Regional Office Administrative Contacts

         Thomas McCool, GAO




C O M M I S S I O N - W I D E U S E O F X - R AY S C AN N E R S   ( M E M O R AN D U M 3 5 )

                                                                  F E B R U AR Y 1 0 , 2 0 0 4
